THE
SUPREME COURT OF THE UNITED STATES

No. 19-494

DAVID ZACHERY MORGAN,
Petitioner,
V.

STATE OF WASHINGTON,
Respondent.

On Petition for a Writ of Certiorari to
the Supreme Court ofWashington

CERTIFICATE OF COMPLIANCE
Pursuant to this Court's Rule 33.l(h), I hereby certify that the Brief in
Opposition to Petition For Writ of Certiorari contains 5,448 words, excluding parts
of the document that are exempted by Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 2, 2020.

ADAM CORNELL
Snohomish County
Prosecuting Attorney
Seth A. Fine
Deputy Prosecuting Attorney
Counsel of Record
3000 Rockefeller Ave. M/8 504
Everett, WA 98201
sfine@snoco.org
(425) 388-3618

